0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. _ _
PDX NORTH, INC.,

Petitioner,
V.

ROBERT ASARO-ANGELO, IN HIS OFFICIAL CAPACITY AS
THE COMMISSIONER OF THE DEPARTMENT OF LABOR
AND WORKFORCE DEVELOPMENT OF THE STATE OF
NEW JERSEY,

Respondent.
As required by Supreme Court Rule 33. l(h), I certify
that the Petition for Writ of Certiorari contains 5,959
words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on March 19, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
I www.beckergallagher.com

I 8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E

Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.
Date:

[seal]

Notary Public

u

JOHN U. GALLAGHER
Notary Public, Stale of Ohio
My Commission Expires
l1h1 r

14 ?'J.'3

